CERTIFICATE OF COMPLIANCE
Case No. 20-291
Caption: Jame11 Birt v. United States
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 5,998 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 5, 2020

Dean Misser
Record Press, Inc.

Sworn to before me on
October 5, 2020
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Ric and Coun

c

40

Notary Public

